Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  HEAD START SERVICES FOR
  CHILDREN WITH ASTHMA




                   JANET REHNQUIST
                     Inspector General

                     October 2002
                    OEI-09-01-00330
                Office of Inspector General

                                   http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. The OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the department. The OCIG
also represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops model compliance plans,
renders advisory opinions on OIG sanctions to the health care community, and issues fraud
alerts and other industry guidance.
From   Director, Regional Operations
        Office of Evaluation and Inspections

Subject OIG Memorandum Report: "Head Start Services for Chil&en with Asthma,"
        OEI-09-01-00330
'To
        Wade F. Hom, Ph.D.
        Assistant Secretary for
          Children and Families


        Attached is a memorandum report that assesses the type and level of service that Head Start
        grantees provide to children with asthma. The report is based on a combination of on-site
        reviews of a random sample of health records of children with asthma, interviews with the
        staff, teachers, and parents of children with asthma, and a mail survey administered to a
        random sample of Head Start grantees.

        Our inspection indicates that Hekd Start grantees use a multifaceted approach at school to
        address the needs of children with asthma. Grantees develop asthma management plans and
        administer medication, when necessary. Grantees also train parents, teachers, and children to
        help them manage asthma. Although the Head Start Biireau (the Bureau) has taken steps to
        address asthma, its initiatives could be strengthened. The Bureau's primary initiative has been
        the publication of training guides for Head Start staff. The Bureau collects data on asthma as
        well as many other health conditions, but the data are unreliable because grantees are unsure
        about how to report the health status of children that they serve. Although asthma is the top
        chronic disease among Head Start children, it is one of many serious health conditions affecting
        Head Start children and their families.

        We identified two opportunities for improvement. The Head Start Bureau could consider:
        (1) determining how available resources could better meet the needs of grantees, and
        (2) improving data collection by outlining specific reporting requirements for health statistics.

        You are welcome to provide comments but are not required to do so, since the report contains
        no recommendations. If you have any questions about this report or would like a meeting to
        discuss more detailed information, please have your staff contact Elise Stein, Director, Public
        Health and Human Services at (202) 619-2686.

        Attachment
                         EXECUTIVE                         SUMMARY

OBJECTIVE

          To assess the type and level of service that Head Start grantees provide to children with
          asthma.

BACKGROUND

          The Head Start program offers comprehensive early childhood education, nutrition, and health

          and social services to low-income children from birth to age 5. The program serves

          approximately 900,000 children through approximately 1,545 grantees. In Fiscal

          Year (FY) 2001, the budget for Head Start totaled nearly $6.2 billion. Within the Department

          of Health and Human Services, the Head Start Bureau (the Bureau), which is part of the

          Administration for Children, Youth and Families, oversees the program. 


          Since the creation of Head Start in 1965, comprehensive health services have been an integral

          part of the program, which aims to improve children’s “social competence” by providing a

          broad range of both cognitive and social services. Head Start grantees are subject to extensive

          requirements, or performance standards, in the area of health. The Head Start Bureau reviews

          compliance once every 3 years.


          Asthma is a growing problem for Head Start as well as the nation as a whole. It is the most

          common chronic disease of childhood and places a disproportionate burden on minority groups

          and the poor, the populations that Head Start serves.1


          We determined how Head Start serves children with asthma and their families by reviewing a

          random sample of children’s health records, interviewing Head Start staff and the parents of

          children with asthma, and conducting a mail survey of a random sample of Head Start grantees. 

          We reviewed 245 records and visited a total of 42 grantees, and we mailed surveys to health

          coordinators at 300 grantees.


          The findings discussed in this report reflect information gathered from record reviews, on-site

          interviews, and mail surveys. We also analyzed grantees’ medication administration policies.





          1
         Department of Health and Human Services, Office of Science Policy, “Action Against Asthma:
A Strategic Plan for the Department of Health and Human Services,” May 2000, page 3.

Head Start and Children with Asthma                1                                    OEI-09-01-00330
FINDINGS

          Head Start grantees use a multifaceted approach to address the needs of children with
          asthma. Approximately 50 percent of grantees develop asthma plans for all children with
          asthma in their program. In addition, 84 percent of grantees provide education and/or training
          to parents of children with asthma while 55 percent provide education to the children
          themselves. Some grantees make special efforts to address the needs of children with asthma
          by developing community partnerships to enhance their program and services.

          The Head Start Bureau has taken steps to address asthma, but its initiatives could be
          strengthened. Although the Bureau has responded to the increased prevalence of asthma by
          issuing training guides, grantees do not use them. Furthermore, grantees are not always aware
          of and rarely rely on the resources that the Bureau provides.

          National Head Start data concerning the prevalence of asthma among Head Start
          children are unreliable. The Bureau collects data on a range of health conditions, including
          asthma, but the data are unreliable because grantees are unsure how to report the health status
          of children they serve. Although children have been reported as having asthma, we could not
          find documentation to support reporting for 13 percent of the children.

          Asthma is one of many health conditions affecting Head Start children and their
          families. Most grantees reported that asthma is no more difficult to manage than other health
          conditions that children have, such as dental problems, obesity, and anemia.

CONCLUSION AND OPPORTUNITIES FOR IMPROVEMENT

Although asthma affects an increasing number of Head Start children, grantees can meet their needs at
school by developing management plans, administering medication, and educating children with and
without asthma, parents, and staff. According to the grantees that we interviewed, asthma is no more
difficult to manage than other health conditions that Head Start children face. The Administration for
Children, Youth and Families, which administers Head Start, has tried to address asthma, but it could
improve the support it provides to grantees.

The Head Start Bureau could consider:

          C         determining how available resources could better meet the needs of grantees and
          C         improving data collection by outlining specific reporting requirements for health
                    statistics.




Head Start and Children with Asthma                 2                                   OEI-09-01-00330
                            TABLE                        OF             CONTENTS

                                                                                                                     PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Addressing the needs of children with asthma . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          The Head Start Bureau’s efforts to address asthma . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          National Head Start data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Health conditions affecting Head Start children and their families . . . . . . . . . . . . . . . . . . . . . 16


CONCLUSION AND OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . 17


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

          A: Child Record Review Sampling Model . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          B: Sample Head Start Materials . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


                     Health History Form . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


                     Asthma Action Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


                     Medication Administration Policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


                     Parent Training Flyer . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


          C: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34





Head Start and Children with Asthma                               3                                                OEI-09-01-00330
                                      INTRODUCTION
OBJECTIVE

          To determine the type and level of service that Head Start grantees provide to children with
          asthma.



BACKGROUND

Head Start Today

          The Head Start program offers comprehensive early childhood education, nutrition, and health
          and social services to low-income children from birth to age 5. In Fiscal Year (FY) 2001, the
          budget for Head Start totaled nearly $6.2 billion--$6 billion for programs and projects and
          approximately $200 million for support activities. The program serves approximately 900,000
          children, mostly 3- and 4-year olds, through approximately 1,545 grantees. Nearly 80 percent
          of Head Start families have an annual income of less than $15,000, and the head of household
          in 53 percent of Head Start families works full-time. The program serves a multiracial
          population and an estimated 42 percent of eligible children.2

Health Services in Head Start

          Since the creation of Head Start in 1965, comprehensive health services have been an integral
          part of the program. The health services component reflects Head Start’s approach to
          improving children’s “social competence” (i.e., cognitive, linguistic, social, emotional, and
          physical development). Head Start programs are required to ensure that each child receives a
          range of health care services, including medical, dental, mental health, and nutritional. The
          program increases access to preventive health services and treatment. Head Start children are
          more likely to receive medical examinations and treatment than non-Head Start children.3




          2
         Head Start Bureau, 2002 Head Start Fact Sheet, found at
<http://www2.acf.dhhs.gov/programs/hsb/research/02_hsfs.htm> April 25, 2002.

          3
           Zigler, E., Health Services in Head Start, Annual Rev. Pub. Health 15:511-34 (1994).

Head Start and Children with Asthma                 4                                     OEI-09-01-00330
Performance Standards for Health Services

          In 1975, the Head Start Bureau established performance standards for each component of the
          program: education, parent involvement, social services, and health. In 1996, the Bureau
          revised the standards and issued new requirements for six broad health-related areas:
          determining child health status; developmental, sensory and behavioral screening; extended
          follow-up and treatment; ongoing care; involving parents; and individualization of the program.
          Today, a total of 24 performance standards apply to health services for children with asthma.
          The standards are general and do not refer specifically to asthma or any other health condition.
          Head Start grantees have the discretion to establish their own programs to meet the standards,
          and the Head Start Bureau reviews grantees’ compliance with all performance standards once
          every 3 years.

The Growing Problem of Asthma Among Head Start Children and the Head Start
Bureau’s Response

          Asthma is the most common chronic disease of childhood. The rate of asthma in children under
          the age of 5 has increased more rapidly than the rate for any other age group; in 1999, it was
          estimated that approximately 1.4 million children under the age of 5 have the disease.4 Children
          with asthma under the age of 15 account for approximately 3 million physician visits and nearly
          200,000 hospitalizations each year.5 The estimated annual cost for treating asthma in children
          under 18 is $3.2 billion.6 Asthma can affect the quality of life for children and their families and
          may cause interrupted sleep, limits on activity, disruption of routines, and absences from school.

          Early childhood asthma can be successfully managed. Despite the prevalence of pediatric
          asthma and its potential for adverse impact, the American Academy of Allergy Asthma &
          Immunology (AAAI) reports that “expected outcomes of care for children with asthma should
          be high.”7 According to AAAI, “symptoms can be controlled; the disease can be controlled;
          and activity limitations are not necessary.”8 Schools have a significant role to


          4
         American Academy of Allergy Asthma and Immunology. “Pediatric Asthma: Promoting Best
Practice: Guide for Managing Asthma in Children,” 1999, page 2.

          5
           Id., page 3.
          6
          American Lung Association. “Asthma in Children Fact Sheet,” found at
<http:///www.lungusa.org/asthma/ascpedfac99.html> April 25, 2002.

          7
         American Academy of Allergy Asthma and Immunology. “Pediatric Asthma: Promoting Best
Practice: Guide for Managing Asthma in Children,” 1999, page 3.

          8
           Id.

Head Start and Children with Asthma                 5                                    OEI-09-01-00330
          play in asthma management, because they “are a natural community hub for children and
          families, and thus a good base for asthma education and referral to health care and social
          services.”9 Schools also may administer medication to children who need it.

          According to the Head Start Bureau, asthma has been the top chronic disease among Head
          Start children for years, and an estimated 4 percent of all children enrolled in the program
          “receive treatment” for asthma.10 Asthma places a disproportionate burden on minority groups
          and the poor, the populations that Head Start serves. The report Action Against Asthma, A
          Strategic Plan for the Department of Health and Human Services notes that “low-income
          and minority populations experience substantially higher rates of fatalities, hospital admissions,
          and emergency room visits due to asthma.”11

          The Head Start Bureau has attempted to address asthma by issuing two training guides for staff.
          The first guide, Sustaining a Healthy Environment, discusses environmental factors, such as
          second hand smoke, that may trigger asthma. The second guide, Caring for Children with
          Chronic Conditions, contains information on the causes of asthma; how to identify and
          recognize asthma in a preschool setting; sample asthma management plans; and planned
          classroom activities. In addition to the training guides, a national Head Start Training and
          Technical Assistance Network is available to assist grantees.



METHODOLOGY

          To meet the objectives of our study, we used a multi-method research approach. In order to
          obtain a complete picture of what services Head Start provides to children with asthma, we
          conducted (1) an on-site review of a random sample of health records of children with asthma,
          (2) interviews with the staff, teachers, and parents of children with asthma, and (3) a mail
          survey administered to a random sample of Head Start grantees.

          On-site record review and interviews . We developed on-site record review instruments
          and interview guides to determine how grantees identify children with asthma and to assess
          what types of documentation grantees maintain regarding the management of children’s asthma
          at school. We sought information on a number of items including


          9
          Marielena Lara, MD, MPH et. al., “Improving Childhood Asthma Outcomes in the United
States: A Blueprint for Policy Action,” Pediatrics, Vol. 109, No. 5, May 2002, page 921.

          10
         Head Start Bureau, Head Start Program Information Report for the 2000-2001 Program
Year, 2002.

          11
         Department of Health and Human Services, Office of Science Policy, “Action Against
Asthma, A Strategic Plan for the Department of Health and Human Services,” May 2000, page 3.

Head Start and Children with Asthma                6                                    OEI-09-01-00330
          (1) children’s health insurance status, (2) children’s health history, as reported by parents
          and/or physicians, (3) asthma management plans, (4) communication between Head Start staff
          and parents regarding the children’s condition, and (5) medication administration.

          The purpose of the on-site interviews was to obtain additional information about the grantees’
          policies and practices related to children with asthma. We interviewed Head Start directors,
          teachers, health services personnel, and parents of children with asthma. We gathered
          information on several topics including asthma screening, staff training, asthma management
          plans, parental involvement, asthma education and training for parents and children, and
          medication administration.

          We pretested the final record review instruments and interview guides with grantees and
          solicited and received comments from experts and researchers knowledgeable about pediatric
          asthma.

          Sampling methodology for record review. We used stratified cluster sampling to select the
          children whose records we reviewed. We chose this sampling methodology because we
          wanted to project our findings to the entire population of children with asthma enrolled in the
          Head Start program. We grouped all children in the Head Start program into geographic
          clusters based on the zip code of the program they attended. Each cluster contained
          approximately 15 children with asthma. We then randomly selected 15 of these clusters in
          three geographic strata: 3 clusters from the western United States, 5 clusters from the central
          United States, and 7 clusters from the eastern United States. Within each sample cluster, we
          reviewed the records of all children with asthma. Our sample consisted of 258 children with
          asthma. We reviewed records for 245 of these children (95 percent of the total), and we
          visited a total of 42 grantees. Appendix A contains a more detailed explanation of the child
          record review sampling methodology.

                                         CLUSTER SAMPLE OF CHILDREN
                                                                  Number of
                                      Strata    Cluster            Clusters
                                                Universe           Selected
                                Western U.S.       531                 3

                                Central U.S.       886                 5

                                Eastern U.S.      1257                 7


          Record reviews allow researchers to view and assess the documentation and other information
          maintained by respondents. While records provide useful information on practices and
          performance, the quality of records can be affected by resource constraints.


Head Start and Children with Asthma               7                                   OEI-09-01-00330
          The usefulness of record reviews may be limited if records do not accurately reflect
          respondents’ procedures.

          Mail survey. The mail survey was designed to provide descriptive information on grantees’
          policies and procedures related to children with asthma. The survey solicited information on the
          same topics included in the on-site interviews. In addition, we analyzed medication
          administration policies submitted by grantees. We pretested the mail survey and solicited
          feedback from Head Start grantees.

          Sampling methodology for mail survey. We selected 300 grantees by using a stratified
          sample. We selected this methodology because we wanted to ensure that we would collect
          information from grantees that have experience caring for children with asthma. Using the
          Program Information Report (PIR) data from the 2000-2001 school year, we grouped grantees
          into three strata based on the number of children with asthma in their program. The first stratum
          consisted of the 100 grantees with the most children with asthma. The second stratum
          consisted of the 25 percent of the remaining grantees with the most children with asthma. The
          third stratum consisted of all remaining grantees. Our response rate for the mail survey was 87
          percent (262/300).

                                         MAIL SURVEY SAMPLE
                                                  Number of children
                         Strata       Grantee      with asthma per           Grantees
                                      Universe        program                Selected
                      Stratum I         100            70 or more               100

                      Stratum II        605             17 to 70                100

                      Stratum III       1813          fewer than 17             100

                      TOTAL             2513                                    300

          Our review was conducted in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




Head Start and Children with Asthma               8                                    OEI-09-01-00330
                                          FINDINGS

          We used a combination of record reviews, on-site interviews, and mail surveys to determine
          how Head Start grantees serve children with asthma. We found that grantees meet the needs
          of children with asthma by developing written action plans, administering medication, and
          educating and training children, parents, and staff. The Head Start Bureau has attempted to
          support grantees and collect data on the health status of children, but its efforts could be
          strengthened and its data are unreliable.


Head Start grantees use a multifaceted approach to address
the needs of children with asthma

Grantees consistently conduct initial health assessments during which parents
disclose if their child has asthma

          According to program performance standards, Head Start grantees are required to request
          information about the child’s overall health condition from the child’s parent.12 Grantees
          consistently gather this information before school begins and compile a health history for the
          child (See Appendix B). We found that 94 percent of children’s records contained a copy of
          the child’s health history, which includes information about everything from prenatal care to
          current health conditions. Nearly 80 percent of the records we reviewed showed that the
          parent had reported the child’s asthma to the grantee during the initial assessment.

          Performance standards also require grantees to obtain documentation related to the child’s
          current health status from a physician or other health professional.13 We found evidence of
          physician14 diagnosis in only 44 percent of the records we reviewed. However, grantees
          request information from a physician when a child takes medication at school. Staff interviewed
          during our on-site record review provided their own explanations for the lack of physician
          documentation. The most common explanations were: difficulty obtaining information from
          physicians; lack of parental effort to obtain requested documentation; and misplaced or lost
          documents from records.



          12
          Program Performance Standards for Operation of Head Start Programs by Grantees and
Delegate Agencies , 45 C.F.R. § 1304.22(b)(3).
          13
            45 C.F.R. § 1304.20(a)(1)(ii) (2002).

          14
          Throughout this report, the term “parent” may refer to: parent(s); other family members; other
caregivers; and/or legal guardians.

Head Start and Children with Asthma                 9                                   OEI-09-01-00330
Grantees address the needs of children with asthma by developing management
plans and administering medication when necessary

          Asthma Management Plans. Grantees play a critical role in asthma management because
          children now spend more time at school.
          According to national Head Start statistics, the      “The present asthma program
          number of Head Start families requiring full-day,       available to our centers has
          full-year child care for their enrolled child has   demonstrated a reduction in sick
          increased significantly. According to one grantee       time and days missed. The
          we visited, “Welfare reform has had a significant        children’s asthma is much
          impact on our families. Ten years ago, before         improved   and the children are
          welfare reform, approximately 60 percent of our        learning how to manage their
                                                             asthma at home and at the center.
          families were working; now it’s approximately 85
                                                             The program has made a dramatic
          percent.”
                                                                      difference to our children.”
                                                                           Head Start Grantee
          Asthma management plans are one component of
          grantees’ efforts to manage asthma. These plans
          are documents that may identify the early warning signs of an asthma episode, the medications
          that a child uses and instructions for administering them, and when to contact the physician or
          emergency room (see Appendix B for examples of plans used by Head Start grantees). The
          development of an asthma management plan is part of one of the four key components
          identified by the National Asthma Education and Prevention Program (NAEPP) of the National
          Heart Lung and Blood Institute (NHLBI) for long-term control of persistent asthma in
          children.15 By developing plans, Head Start grantees meet the performance standard which
          requires that they “develop and implement a follow-up plan for identified conditions.”16

          Approximately 48 percent of grantees indicate that they develop written asthma management
          plans for all children with asthma in their program. Among those grantees that do not develop
          plans for all children with asthma, many report that they develop plans for children under
          specific circumstances. For example, grantees may develop plans for children who take
          medication at school, children with severe asthma, or children with physical and/or dietary
          restrictions.

          One grantee that we visited has developed an asthma protocol to identify the children who need
          an asthma management plan. After identifying children with active asthma who take medication
          at school, the grantee works with the child’s parent and physician to



          15
          National Heart, Lung, and Blood Institute, National Asthma Education and Prevention Program.
Expert Panel Report 2: Guidelines for the Diagnosis and Management of Asthma. National Institute
of Health pub no 97-4051. Bethesda, MD, 1997.

          16
            45 C.F.R. § 1304.20(a)(1)(iv).

Head Start and Children with Asthma               10                                    OEI-09-01-00330
          develop an appropriate plan. For children who either have active asthma, but do not take

          medication at school, or children who do not have active asthma, but who have had a history of

          the disease, the grantee will note them on a health alert list that is posted in every classroom.


          We found asthma management plans in 30 percent of the records that we reviewed. 

          While we did not consistently probe as to the reason the plan might be absent from the child’s

          record, several of the staff members we interviewed offered the following explanations: the

          grantee does not develop action plans for any of their children; the child had asthma before

          entering the program, but does not exhibit any symptoms now; parents fail to return information

          to the program, so the plan cannot be completed; or the grantee only develops plans for

          children who meet certain criteria, including: children with activity restrictions, children who take

          medication at school, or children whose asthma is severe.


          Medication Administration. Grantees are required to “establish and maintain written

          medication administration procedures.”17 We found that grantees meet this requirement and are

          prepared to deliver medication to children who need it. Most grantees (85 percent) that

          responded to the mail survey report that their staff are authorized to administer medication to

          children with asthma. We reviewed written policies and found that staff often administer

          medication after receiving written orders from the child’s physician and instructions from the

          parent (see Appendix B for a sample medication administration policy).


          Although grantees are prepared to administer medication, children with asthma often do not

          need it. One grantee reported, “while we do have a plan for each child with asthma, we rarely

          need to administer medication at school.” We found that at least 53 percent of children with

          asthma do not receive medication at school. One possible explanation is that parents administer

          medication at home. When children need medication, the typical drug is albuterol.18 Of the

          children we could determine took medication at school, approximately 91 percent took

          albuterol. 


An integral part of Head Start’s plan for managing children with asthma is
education, training, and parent involvement

          Patient Education. Approximately 55 percent of grantees provide some type of education
          and training to children with asthma. According to NAEPP, “patient education is an essential
          component of successful asthma management.”19 In order to learn how to manage the disease,
          every child with asthma should receive the appropriate information about their condition.
          According to experts, children as young as 2 years old can begin




          17
            45 C.F.R. § 1304.22(c) (2002).


          18
            Albuterol is a quick relief medication, taken, as needed, to relieve symptoms.


          19
            See Supra note 15.


Head Start and Children with Asthma                  11                                       OEI-09-01-00330
          learning about their asthma.20 While more than half of grantees report they provide some form
          of training and education to children with asthma, the topics they cover are varied. Of the
          grantees that educate children with asthma, 53 percent teach children about their symptoms, 44
          percent teach children what to do during an asthma emergency, and 33 percent teach children
          how to administer medication.

          Some grantees have developed innovative approaches to educate children with asthma about
          their disease. One grantee that we visited had developed an asthma prevention program as a
          pilot project in 1995 after discovering that 37 percent of enrolled children had asthma.
          According to program materials, most families who began the program completed it. All of the
          families reported a marked improvement in their child’s asthma. This program includes special
          learning activities at school to teach children about their bodies, respiration, and asthma triggers.
          In addition, the program distributes an asthma kit to each child. The kit includes a peak flow
          meter (a device that measures the ability to exhale) and costs $40 initially and $25 a year to
          maintain.

          Education of Children without Asthma. Asthma management also may involve education of
          children who do not have asthma. Of the 37 percent of grantees that provide education and
          training to children without asthma, several show children a video developed by the American
          Lung Association and the Children’s Television Workshop. This video, entitled “A is for
          Asthma,” features Sesame Street characters teaching children about the disease and how to
          help someone who has trouble breathing. The “A is for Asthma” program also includes a
          companion guide for caregivers as well as suggested classroom activities. Both the video and
          the guide are available in English and Spanish.

          Parent Education and Involvement. Head Start programs are required to involve parents in
          the care that their children receive at school. One performance standard requires grantees to
          “establish a system of ongoing communication with parents of children with identified health
          needs to facilitate the implementation of the follow-up plan.”21 Grantees also “must familiarize
          parents with use of and rationale for all health and developmental procedures administered
          through the program or contract.”22 We found that 84 percent of grantees provide education
          and/or training to parents of children with asthma (See Appendix B for a sample flyer related to
          parent training). One grantee reported, “parents and staff together receive the same training to
          ensure that the treatment is administered correctly.” Among the grantees that educate and train
          parents, 74 percent provide information about recognizing symptoms of an asthma attack.




          20
          American Academy of Allergy Asthma and Immunology, “Pediatric Asthma: Promoting Best
Practices: Managing the Child with Asthma,” Component 4, page 105, found at
<http://www.aaai.org/members/resources/initiatives/pediatricasthmaguidelines/default.htm> April 4, 2002.

          21
            45 C.F.R. § 1304.20(C)(1) (2002).

          22
            45 C.F.R. § 1304.20(e)(2) (2002).

Head Start and Children with Asthma                 12                                      OEI-09-01-00330
          Grantees also provide training on what to do during an asthma emergency and how to
          administer asthma medications. In addition, parents participate in the development of asthma
          management plans. Almost two-thirds (65 percent) of grantees report that they involve parents
          in the development of these plans.

          One grantee we visited used a parent education program specifically developed for parents of
          preschoolers with asthma. The program, known as Wee Wheezers, features a broad
          curriculum designed to teach parents how to recognize their child’s symptoms, administer
          medication appropriately, and communicate effectively with physicians and other adults who are
          responsible for the child’s care. The program consists of four 2-hour sessions.

          In some cases, parents and Head Start staff communicate with each other about children’s
          condition at school. Based on our review of the records of children with asthma, we found that
          39 percent of staff have had some type of contact with parents of children with asthma
          regarding their children’s condition. Typically, parents of children with asthma and staff interact
          when children have asthma-related difficulties at school; children are absent due to their asthma
          condition; or staff need information about medication administration and/or school emergencies.

          Staff Training. Most grantees (90 percent) provide
          asthma-related training to staff. Head Start staff must have
          adequate training on how to care for children with asthma.23       “...when a child has
                                                                          asthma, the parent is the
          Grantees are required to establish and implement a
                                                                             primary educator.
          structured approach to staff training and development.24       Parents will train staff on
          Grantees should develop and integrate asthma-related             the specific, individual
          training to cover topics, such as recognizing the symptoms        needs of their child.”
          of asthma, the procedures for handling an asthma
          emergency and how to administer asthma medications.25
          Approximately 95 percent of grantees that educate their
          staff provide training on how to recognize the symptoms of asthma and what to do during an
          asthma emergency, and 85 percent train staff on how to administer medication.




          23
          National Heart, Lung, and Blood Institute, National Asthma Education and Prevention Program.
“National Asthma Education and Prevention Program Resolution on Asthma Management at
School.” found at <http://www.nhlbi.nih.gov/health/public/lung/asthma/resolut.htm> April 3, 2002.

          24
            45 C.F.R. § 1304.52(k)(2) (2002).

          25
            See Supra note 23.

Head Start and Children with Asthma                13                                     OEI-09-01-00330
Some Head Start grantees develop community partnerships to help them address
the needs of children with asthma

          Some grantees work with universities on asthma-related research projects. One grantee we
          visited is involved in a 3-year asthma project sponsored by a local university. The first and
          second years focused on expanded screening. Nursing students administered physical exams at
          home or school to children with asthma or children using asthma medications. The third year
          will focus on parent education. Another grantee works with a local university on a project
          designed to identify children suspected of having asthma and refer them to appropriate medical
          care when needed. One grantee reported how beneficial it was to work with a local university
          on a grant on asthma and Head Start children. The grantee stated, “we are fortunate to have
          the expertise and knowledge from the university to help us in all areas of programming – staff
          education, parent training, and developing management plans.”

          A grantee that responded to our mail survey obtained a $65,000 grant from the philanthropic
          arm of a major pharmaceutical company to fund an outreach project for children with asthma or
          at risk for asthma, their parents, and staff at 40 Head Start sites. The funding supported
          multilingual screening and education activities. The program involved over 3,700 Head Start
          children, 62 parents, and 170 staff members.



The Head Start Bureau has taken steps to address asthma,
but its initiatives could be strengthened

The Bureau has issued training guides to support grantees

          In the mid-1990's, the Head Start Bureau contracted with a private company to develop
          health-related training guides for staff. The company wrote a series of eight guides between
          1995 and 2000. Two of these guides relate to asthma. The first guide, Sustaining a Healthy
          Environment, discusses ways to promote health at home and at school. The second guide,
          Caring for Children with Chronic Conditions, addresses asthma specifically and contains
          guidelines for developing health plans for children with the disease. Both guides are available in
          English only.

Grantees are not always aware of and rarely rely on Head Start Bureau resources
to help them address the needs of children with asthma

          Only 37 percent of grantees use the Head Start Bureau’s training guide, Caring for Children
          with Chronic Conditions, which teaches Head Start staff how to care for children with asthma
          and other chronic health conditions. A grantee reported, “I do not recall receiving the Head
          Start Bureau’s training guide, nor have I received any technical assistance or training regarding
          asthma . . . we use the resources that are available to us.”




Head Start and Children with Asthma                14                                     OEI-09-01-00330
          Most grantees do not use the National Head Start

          Training and Technical Assistance Network for 

          assistance regarding children with asthma. The network 
            “We have more children
          consists of regional Quality Improvement Centers staffed by
         diagnosed with asthma
          specialists familiar with local cultures and issues. Asthma
         than any other health
          has not been a priority for the network, although health
            condition. I would like
          specialists are available to assist grantees. Almost 85
           more information from the
                                                                               Training and Technical
          percent of grantees reported that they do not use the

                                                                                Assistance Network”
          network for assistance regarding asthma.




National Head Start data concerning the prevalence of
asthma among Head Start children are unreliable

          Head Start prevalence data provide an inaccurate, incomplete picture of the impact of asthma
          on Head Start programs. The Program Information Report (PIR), the annual survey of
          grantees, reflects inconsistent reporting on the prevalence of asthma and other health conditions.
          According to the Head Start Bureau, “the PIR provides comprehensive, national data on the
          Head Start program . . .the number of children
          being served and program services and                   “We struggle with whom to count
          activities.”26 However, grantees receive little          as having asthma. There is no
          guidance from the Head Start Bureau on how              clear definition from ACF and we
          to report the number of children with asthma in          have to make up our own. Kids
          their programs. The PIR form only directs                 who have been diagnosed with
          grantees to report “the number of children who            asthma, but don’t exhibit any
          received treatment for asthma.”                          symptoms    get lost in the group


          When asked whom they report as having
          asthma for purposes of the PIR, grantees responded with a variety of answers. Overall, Head
          Start grantees identified 10 different criteria for reporting the number of children with asthma on
          the PIR. In some cases grantees only report those children who were diagnosed by a health
          care practitioner, while other grantees are more inclusive and report based on a combination of
          criteria, including those who been diagnosed by a health care practitioner and those who were
          identified through parent reporting. During our review, we identified some children
          (13 percent) who had been reported on the PIR as having asthma, but whose records
          contained no evidence of the condition.




          26
         Head Start Bureau, “Information Memorandum–1997-1998 Program Information Report,”
March 18, 1998.

Head Start and Children with Asthma                15                                     OEI-09-01-00330
                       GRANTEES REPORT ASTHMA CASES DIFFERENTLY


 Children identified                     Children diagnosed by a                Children receiving                Percent of
 through parent reporting                health care practitioner               medication at school              Grantees*
                  U                                      U                                    U                    34 percent

                                                         U                                                         30 percent

                  U                                      U                                                         19 percent

                                                         U                                    U                    10 percent
                                                                                 Source: Office of Evaluation and Inspections, 2002
                                      *Note: 7 percent of grantees use other, less common criteria for reporting their asthma cases.




Asthma is one of many health conditions affecting Head Start
children and their families

          Almost two-thirds (65 percent) of all Head Start grantees reported that there is at least one
          other health condition they consider to be a health priority in addition to asthma. In all, grantees
          identified over 50 different health conditions that affect the children in their program. In fact,
          according to 86 percent of all grantees, asthma is no more difficult to manage than any of the
          health conditions that children in their
          program have. After being asked if           OTHER HEALTH PRIORITIES IN HEAD
          there were any other health priorities in    START
          their program, one grantee responded
          “All of our health conditions are a
          priority. . . . they are too numerous to
          state each one.” Some of the more
          common conditions that Head Start
          grantees noted include obesity, dental
          problems, anemia, seizures, and high
          lead levels.




                                                                        Source: Office of Evaluation and Inspections, 2002




Head Start and Children with Asthma                          16                                             OEI-09-01-00330
          CONCLUSION AND OPPORTUNITIES FOR IMPROVEMENT



CONCLUSION

          Although asthma affects an increasing number of Head Start children, grantees can meet their
          needs at school by developing management plans, administering medication, and educating
          children with and without asthma, parents, and staff. According to grantees we interviewed,
          asthma is no more difficult to manage than other health conditions that Head Start children face.
          The Administration for Children, Youth and Families, which administers Head Start, has tried to
          address asthma, but it could improve the support it provides to grantees.

OPPORTUNITIES FOR IMPROVEMENT

Determine how available resources could better meet the needs of
grantees

          Grantees do not typically use the Training and Technical Assistance Network or the training
          guide that specifically addresses asthma. Grantees have found other resources to assist children
          with asthma and their families. These resources include health guides written in English as well
          as Spanish. Instead of paying for special training guides for the Head Start community, the
          Bureau could disseminate information that has been developed by a myriad of private and
          public entities.

Improve data collection by outlining specific reporting criteria for
health statistics

          Since data on the health status of children drive national policy, the Head Start Bureau could
          improve the accuracy of this data by outlining criteria for reporting children who have various
          health conditions. For example, if the Bureau decides that parent reporting is adequate, it could
          instruct grantees to include in the PIR the number of children whose parents reported that their
          children have asthma.




Head Start and Children with Asthma                17                                    OEI-09-01-00330
                                                                                        Appendix A



                            Child Record Review Sampling Model



          Head Start Cluster Sample

          To select the children’s records for our review, we used a one-stage cluster sample. Each
          cluster was generated by grouping children together based on the zip code of the grantee to
          which they were enrolled. Clusters consisted of children enrolled in the Head Start program
          during the 2000-2001 school year. We designed these clusters so that they would each contain
          approximately 15 children who were being treated for asthma.

          Since at the time of the sample selection the 2000-2001 PIR was not available, we used the
          1999-2000 PIR to create the cluster framework and develop probabilities that children from
          each Head Start program would be included in a given cluster. Specifically, we developed a
          computer model that simulated a “clustering” of children with asthma from the PIR. The
          probability that a specific child at a specific grantee would later be included in a given cluster
          was determined by dividing the number of that grantee’s PIR children with asthma in that cluster
          by the overall total number of children with asthma in that grantee.

          Since some grantees did not have any children being treated for asthma in the 1999-2000
          school year, but might during the 2000-2001 school year, we assigned these grantees to the
          cluster closest to them geographically.

          We then randomly selected 15 of these clusters in three geographic strata: 3 from the western
          U.S., 5 from the central U.S., and 7 from the eastern U.S. We asked the Head Start programs
          in our sample clusters for the number of children enrolled during the 2000-2001 school year
          and for a list of the names of the children who had been treated for asthma. Because each
          grantee’s children were divided among 1 or more clusters, we randomly assigned these children
          to clusters according to the probabilities that we developed using the PIR computer model.

          We then conducted site visits to the grantees whose children with asthma appeared in the
          clusters in our sample.

          Example

          Grantee X had 200 children enrolled and 10 children being treated for asthma, according to the
          1999-2000 PIR. Our computer model clusters 3 of the children with asthma into cluster A and
          7 into cluster B. During our cluster selection, we randomly select cluster A. We request from
          grantee X the total number of children enrolled and a list of the names



Head Start and Children with Asthma                18                                    OEI-09-01-00330
          of children being treated for asthma during the 2000-2001 program year. Grantee X reports a
          total enrollment of 100 children and sends us a list of the names of 20 children who were being
          treated for asthma.

          We then randomly assign these 100 children to the two clusters, with probability 3/10 for
          cluster A and 7/10 for cluster B. Therefore, we would expect approximately 6 children with
          asthma to be included in cluster A for this grantee. We then review the records of these
          children with asthma.




Head Start and Children with Asthma               19                                    OEI-09-01-00330
                                                                     Appendix B



                                      Sample Head Start Materials





Head Start and Children with Asthma              20                  OEI-09-01-00330
Head Start and Children with Asthma   21   OEI-09-01-00330
Head Start and Children with Asthma   22   OEI-09-01-00330
Head Start and Children with Asthma   23   OEI-09-01-00330
Head Start and Children with Asthma   24   OEI-09-01-00330
Head Start and Children with Asthma   25   OEI-09-01-00330
Head Start and Children with Asthma   26   OEI-09-01-00330
Head Start and Children with Asthma   27   OEI-09-01-00330
Head Start and Children with Asthma   28   OEI-09-01-00330
Head Start and Children with Asthma   29   OEI-09-01-00330
Head Start and Children with Asthma   30   OEI-09-01-00330
                                                                                      Appendix C


                      Confidence Intervals for Selected Statistics



          The following tables show the point estimates and 95 percent confidence intervals for selected
          statistics in the order that they appear in the report.



                                                                       Point              95 Percent
                                  Statistic
                                                                      Estimate        Confidence Interval
 Percent of records that contained a “health history” form              94%                89%-100%

 Percent of records that contained documentation of parent-
                                                                        80%                 73%-87%
 reported asthma

 Percent of records that contained documentation of asthma
                                                                        44%                 34%-54%
 diagnosed by health care practitioner

 Percent of grantees that develop written management plans
                                                                        48%                 40%-56%
 for all children with asthma in their program

 Percent of grantees that develop plans for children with
                                                                        17%                 11%-23%
 asthma who take medication at school

 Percent of grantees that develop plans for children with
                                                                         8%                  3%-12%
 asthma who have “active” and/or “severe” asthma

 Percent of grantees that develop plans for children with
                                                                         3%                   1%-6%
 asthma who have physical and/or dietary restrictions

 Percent of records that contained a copy of an asthma
                                                                        30%                 15%-44%
 management plan

 Percent of grantees that have authorized staff to deliver
                                                                        85%                 79%-90%
 medication to children with asthma while they are at school

 Percent of children with asthma who do not receive
                                                                        53%                 37%-68%
 medication while they are at school

 Of children with asthma who take medication while they are
                                                                        91%                75%-100%
 at school, percent who take albuterol

 Percent of grantees that provide education or training on
                                                                        55%                 46%-63%
 asthma to children with asthma

 Of the grantees that provide training and education on asthma
 to children with asthma, percent who teach them about                  53%                 41%-65%
 recognizing symptoms of an asthma attack


Head Start and Children with Asthma                31                                  OEI-09-01-00330
 Of the grantees that provide training and education on asthma
 to children with asthma, percent who teach them about what       44%        32%-55%
 to do during an asthma emergency

 Of the grantees that provide training and education on asthma
 to children with asthma, percent who teach them about            33%        22%-44%
 administering asthma medication

 Percent of grantees that provide education or training on
                                                                  37%        28%-46%
 asthma to children without asthma

 Percent of grantees that provide education or training on
                                                                  84%        77%-89%
 asthma to parents of children with asthma

 Of the grantees that provide education or training on asthma
 to parents of children with asthma, percent who teach them       74%        66%-82%
 about recognizing symptoms of an asthma attack

 Percent of grantees that involve parent in the development of
                                                                  65%        57%-73%
 asthma management plans

 Percent of records that have documentation of contact
 between parents of children with asthma and the program          39%        26%-52%
 about the child’s condition

 Percent of grantees that provide education or training on
                                                                  90%        86%-95%
 asthma to Head Start staff

 Of the grantees that provide education or training on asthma
 to Head Start staff, percent that teach them about recognizing   96%       93%-100%
 symptoms of an asthma attack

 Of the grantees that provide education or training on asthma
 to Head Start staff, percent that teach them about what to do    95%        91%-99%
 during an asthma emergency

 Of the grantees that provide education or training on asthma
 to Head Start staff, percent that teach them about how to        85%        79%-91%
 administer asthma medication

 Percent of grantees that use the Head Start Bureau’s training
 guide, “Caring for Children with Chronic Conditions,”            37%        29%-44%
 Module 3

 Percent of grantees that have not received assistance on
 asthma from the Head Start Training and Technical                84%        79%-89%
 Assistance Network

 Percent of children who were identified as having asthma, but
                                                                  13%         8%-17%
 whose records contain no mention of the condition




Head Start and Children with Asthma                32                   OEI-09-01-00330
 Percent of grantees that use a combination of parent
 reporting, physician diagnosis, and receiving asthma
                                                                           34%                  26%-41%
 medication at school as the criteria for reporting children with
 asthma on the Program Information Report

 Percent of grantees that use physician diagnosis as the only
 criterion for reporting children with asthma on the Program               30%                  23%-37%
 Information Report

 Percent of grantees that use a combination of parent reporting
 and physician diagnosis as the criteria for reporting children            19%                  13%-26%
 with asthma on the Program Information Report

 Percent of grantees that use a combination of physician
 diagnosis and receiving asthma medication at school as the
                                                                           10%                   6%-15%
 criteria for reporting children with asthma on the Program
 Information Report

 Percent of grantees that reported there is at least one other
 health condition they consider to be a health priority in addition        65%                  57%-72%
 to asthma

 Percent of grantees that reported that asthma is no more
 difficult to manage than any of the health conditions that                86%                  81%-91%
 children in their program have

 Percent of grantees that report that dental health is another
                                                                           16%                  10%-21%
 health priority for their program

 Percent of grantees that report that obesity is another health
                                                                           14%                   9%-19%
 priority for their program

 Percent of grantees that report that anemia is another health
                                                                           14%                   8%-19%
 priority for their program

 Percent of grantees that report that allergies are another
                                                                           12%                   7%-17%
 health priority for their program

 Percent of grantees that report that seizures are another
                                                                           11%                   7%-16%
 health priority for their program

 Percent of grantees that report that lead levels are another
                                                                            7%                   3%-10%
 priority for their program



Note: In the tables above, point estimates and confidence intervals are rounded to the nearest percentage
point.




Head Start and Children with Asthma                  33                                    OEI-09-01-00330
                                  ACKNOWLEDGMENTS


This report was prepared under the direction of Paul Gottlober, Regional Inspector General for
Evaluation and Inspections in the San Francisco Regional Office. Other principal Office of Evaluation
and Inspections staff who contributed include:

Cindy Lemesh, Project Leader

Christopher Tarbell, Program Analyst

Barbie Robinson, Program Analyst

Camille Harper, Program Analyst

Robert Gibbons, Program Analyst

Steven Zerebecki, Program Analyst

Steve Milas, Program Analyst

Alan Levine, Program Specialist





For information or copies of this report, please contact the Office of Inspector General’s Public Affairs
office at (202) 619-1343.
